BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Emily Mullins, hereby certify that 1 unbound and
40 copies of the foregoing Brief of Amici Curiae
California Constitutional Rights Foundation and Faith
and Freedom Foundation in Support of Petitioners in
21-295, In Re America's Frontline Doctors, et al., were
sent via Two Day Service to the U.S. Supreme Court,
and 3 copies were sent Two Day Service and e-mail to
the following parties listed below, this 28th day of
September, 2021:
Gregory James Glaser
Greg Glaser, Attorney at Law
4399 Buckboard Drive #423
Copperopolis, CA 95228
(925) 642-6651
greg@gregglaser.com

Counsel for Petitioners

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

I (800) 890.5001

www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

Emily Kuwahara
Uri Niv
Crowell & Moring, LLP
515 South Flower St., 40th Floor
Los Angeles, CA 90071-2201
(213) 622-4750
EKuwahara@crowell.com
univ@crowell.com
Kristin Madigan
Suzanne Rode
Crowell & Moring, LLP
3 Embarcadero Center, 26th Floor
San Francisco, CA 94111
(415) 986-2800
kmadigan@crowell.com
srode@crowell.com
Norman J. Hamill
Katharine Essick
University of California
Office of General Counsel
1111 Franklin Street, 8th Floor
Oakland, CA 94607-5200
(510) 987-9800
Norman.hamill@ucop.edu
Katharine.essick@ucop.edu

Counsel for Respondents

Gary G. Kreep
Counsel of Record
932 D Street, Suite 1
Ramona, CA 92065
(760) 803-4029
gary@ggkmail.us
Counsel for Amici Curiae

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on September 28, 2021.

Emily Mullins
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date:

~ b..t<. c}f' 1 c)o d (

Jz(ii, el .

Notary Public
[seal]

bu&

